/-~     DEPARTMENT
/-g DEPARTMENT     OF HEALm
               OF HEALm     & HUMAN
                         & HUMAN    SERVICES
                                  SERVICES
                                              OFFICE OF INSPECTOR GENERAL


  -f
t-ff­
  a~
-."'..a~
'«"'...
                                                                                         Offce of Audit Services,
                                                                                         Office

                                                                                         150
                                                                                                  Leger Building,
                                                                                         Public Ledger
                                                                                              S.Independence
                                                                                         150 S.  Independence MaIl
                                                                                         Phiadelphia, PA
                                                                                         Philadelphia,
                                                                                                                  MaI
                                                                                                                      Region m
                                                                                                             Servce, Region
                                                                                                            Building,Suite
                                                                                                                      Suite 316
                                                                                                                       West
                                                                                                           PA 19106-3499
                                                                                                              19106-3499

                                                                                                                            316
                                                                                                                               m



                                                    AUG 2 6
                                                    AUG   62009
                                                            2009

           Report Number:
           Report Number: A-03-07-00012

               Patrck Kiley
           Mr. Patrick
           President
           Highmark Medicare Services
           1800 Center Street
                 Hill, Pennsylvania
           Camp Hill,  Pennsylvana 17089
                                    17089

           Dear Mr. Kiley:

           Enclosed isisthe
           Enclosed      theu.S.
                             u.S.Department
                                  Deparent ofofHealth
                                                  Healthand
                                                         andHuman
                                                              HumanServices
                                                                       Services (HHS), Office
                                                                                           Office ofof Inspector
                                                                                                        Inspector
                     (OIG), final
           General (OIG),   final report
                                  report entitled
                                         entitled "Review
                                                  "Review ofof High-Dollar
                                                               High-Dollar Payments
                                                                             Payments forforMaryland
                                                                                              Marylandand  andDistrict
                                                                                                               Distrct
                          Outpatient Claims
           of Columbia Outpatient    Claims Processed
                                              ProcessedbybyCareFirst
                                                             CareFirstofofMaryland
                                                                          Marland for for the
                                                                                           the Period
                                                                                                Period January 1, 1,
           2003, through
           2003,  though September     30,2005."
                           September 30,    2005." We
                                                    We will
                                                        wil forward
                                                             forward aa copy
                                                                        copy of
                                                                              of ths
                                                                                 thisreport
                                                                                      report toto the
                                                                                                   the HHS action
           official noted on the following page for review and any action deemed necessary.

               HHS action official
           The HHS           official will
                                      wil make
                                           make final
                                                 final determnation
                                                       determinationasasto
                                                                         toactions
                                                                            actions taken
                                                                                     taken on
                                                                                            on all
                                                                                               all matters
                                                                                                   matters reported.
                       that you
           We request that  you respond
                                 respond totothis
                                              ths official
                                                  official within
                                                           withn 30
                                                                  30 days from the date
                                                                                      date of
                                                                                           of this
                                                                                              this letter.
                                                                                                    letter. Your
           response should present any comments or additional information that you believe may have a
           bearng
           bearing on the final determination.
                      the final determnation.

           Pursuant
           Pursuant to the to  theofFreedom
                            Freedom  
          Inormation Act,
                                            of Information   Act, 5 U.S.c.
                                                                    U.S.c. §§ 552,
                                                                              552, OIGreports
                                                                                   OIGreports generally
                                                                                                  generally are made
           available to the public to the extent that information in the report is not subject to exemptions in
                 Act. Accordingly,
           the Act.       Accordingly, thsthisreport
                                               reportwil
                                                     willbebeposted
                                                              postedon
                                                                     onthe
                                                                        theInternet
                                                                             Internetatathttp://oig.hhs.gov.
                                                                                         http://oig.hhs.gov.

           If you have any questions or comments about this report, please do not hesitate to call me at
           (215)
           (215) 861-4470,
                 861-4470, or
                            or contact
                               contact Bernard
                                       Bernard Siegel,
                                               Siegel, Audit
                                                       Audit Manager,
                                                              Manager, at
                                                                       at (215)
                                                                           (215) 861-4484
                                                                                 861-4484ororthrough  email
                                                                                              though email
              Bernard.Siegel(goig.hhs.gov. Please
           at Bernard.Siegel@oig.hhs.gov.          refer to
                                            Please refer to report
                                                            report number
                                                                   number A-03-07-00012
                                                                            A-03-07-00012 in
                                                                                           in all
           correspondence.

                                                            Sincerely,


                                                            A-hL-d;sL
                                                            A-hL-
                                                            Stephen Virbitsky
                                                                             d; -­          ==
                                                            Regional Inspector General
                                                             for Audit Services

           Enclosure

           Copy:
           Mr. Jame
               Jamie Bylotas
                      Bylotas
           Director, Quality &
                             & Performance Management
Page 2 -- Mr. Patrck
              Patrick Kiley
                      Kiley


                    Action Official:
Direct Reply to HHS Action Offcial:

Ms. Nanette Foster Reily,
Ms. Nanette Foster  Reilly, Consortium Administrator
                            Consortium Administrator

Consortium for Financial Management &            Service Operations
                                       & Fee for Service
Centers for Medicare & & Medicaid Services
601 East 12th Street,
    East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    REVIEW OF HIGH-DOLLAR 

 PAYMENTS FOR MARYLAND AND 

     DISTRICT OF COLUMBIA 

      OUTPATIENT CLAIMS 

         PROCESSED BY 

    CAREFIRST OF MARYLAND 

FOR THE PERIOD JANUARY 1, 2003,

 THROUGH SEPTEMBER 30, 2005 





                    Daniel R. Levinson

                     Inspector General 


                       August 2009

                      A-03-07-00012

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with fiscal intermediaries to process and pay Medicare Part B claims submitted by
hospital outpatient departments (providers). The intermediaries use the Fiscal Intermediary
Standard System and CMS’s Common Working File to process payments for claims. The
Common Working File can detect certain improper payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services using the
appropriate Healthcare Common Procedure Coding System codes and to report units of service
as the number of times that a service or procedure was performed.

CareFirst of Maryland (CareFirst) was the Medicare fiscal intermediary for Maryland and the
District of Columbia from January 1, 2003, through September 30, 2005. CareFirst processed
more than five million outpatient claims, 32 of which resulted in payments of $50,000 or more.
Highmark Medicare Services (Highmark) assumed CareFirst’s business operations as Medicare
fiscal intermediary for Maryland and the District of Columbia on October 1, 2005, and is
responsible for resolving any issues identified in the report.

OBJECTIVE

Our objective was to determine whether high-dollar Medicare payments that CareFirst made to
providers for outpatient services were appropriate.

SUMMARY OF FINDINGS

Of the 32 high-dollar payments that CareFirst made to 15 providers, 24 were inappropriate. The
24 payments included overpayments totaling $1,208,485. Providers refunded $381,110 of this
amount prior to our audit and $716,517 as a result of our audit. Providers had not refunded
$110,858 in overpayments for six claims at the time of our audit

Providers received these overpayments by billing for excessive units of service or by billing for
the wrong service or procedure. CareFirst made these incorrect payments because neither the
Fiscal Intermediary Standard System nor the Common Working File had sufficient edits in place
from January 1, 2003, through September 30, 2005, to detect and prevent the overpayments.

RECOMMENDATIONS

We recommend that Highmark:

   •   recover the $110,858 for the six identified overpayments and

   •   use the results of this audit in its provider education activities.

                                                 i
HIGHMARK MEDICARE SERVICES COMMENTS

In written comments (Appendix) on our draft report, Highmark stated that it concurred with our
recommendations. Highmark said that it will initiate action to recover the $110,858 in identified
overpayments and will include the results of this audit in its analysis of provider education
activities.




                                              ii
                                                         TABLE OF CONTENTS


                                                                                                                                               Page


INTRODUCTION........................................................................................................................1 


          BACKGROUND ...............................................................................................................1 

              Medicare Fiscal Intermediaries..............................................................................1                                

              Claims for Outpatient Services ..............................................................................1                               

              CareFirst of Maryland and Highmark Medicare Services .....................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................2 

               Objective ...............................................................................................................2                  

               Scope......................................................................................................................2                

               Methodology ..........................................................................................................2                     


FINDINGS AND RECOMMENDATIONS ..............................................................................3 


          FEDERAL REQUIREMENTS ..................................................................................................................... 3 


          INAPPROPRIATE HIGH-DOLLAR PAYMENTS .........................................................3 


          CAUSES OF OVERPAYMENTS.....................................................................................4 


          FISCAL INTERMEDIARY PREPAYMENT EDIT.........................................................4 


          RECOMMENDATIONS...................................................................................................4                              


          HIGHMARK MEDICARE SERVICES COMMENTS ....................................................4 


APPENDIX

          HIGHMARK MEDICARE SERVICES COMMENTS




                                                                      iii
                                             INTRODUCTION 

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part B claims submitted by hospital outpatient departments (providers). The intermediaries’
responsibilities include determining reimbursement amounts, conducting reviews and audits, and
safeguarding against fraud and abuse. Federal guidance provides that intermediaries must
maintain adequate internal controls over automatic data processing systems to prevent increased
program costs and erroneous or delayed payments.

To process providers’ claims, the intermediaries use the Fiscal Intermediary Standard System
and CMS’s Common Working File. The Common Working File can detect certain improper
payments during prepayment validation.

In calendar years (CY) 2003–2005, fiscal intermediaries processed and paid more than
409 million outpatient claims, 1,243 of which resulted in payments of $50,000 or more (high-
dollar payments). We consider such claims to be at high risk for overpayment.

Claims for Outpatient Services

Providers generate the claims for outpatient services provided to Medicare beneficiaries.
Medicare guidance requires providers to submit accurate claims for outpatient services using the
appropriate Healthcare Common Procedure Coding System codes and to report units of service
as the number of times that the service or procedure was performed.

CareFirst of Maryland and Highmark Medicare Services

CareFirst of Maryland (CareFirst) was the Medicare fiscal intermediary for Maryland and the
District of Columbia from January 1, 2003, through September 30, 2005. CareFirst processed
more than five million outpatient claims, 32 of which resulted in payments of $50,000 or more.
Highmark Medicare Services (Highmark) 1 assumed CareFirst’s business operations as the
Medicare fiscal intermediary for Maryland and the District of Columbia on October 1, 2005, and
is responsible for resolving any issues identified in the report.




1
Highmark Medicare Services, a subsidiary of Highmark, Inc., is headquartered in Pittsburgh and has offices in
Camp Hill and Williamsport, Pennsylvania.



                                                      1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare payments that CareFirst made to
providers for outpatient services were appropriate.

Scope

We reviewed the 32 high-dollar payments for outpatient claims that CareFirst processed for
Maryland and District of Columbia providers from January 1, 2003, through September 30,
2005. We limited our review of internal controls to those applicable to the 32 payments because
our objective did not require an understanding of all internal controls over the submission and
processing of claims. Our review allowed us to establish reasonable assurance of the
authenticity and accuracy of the data obtained from the National Claims History file, but we did
not assess the completeness of the file.

We conducted our audit work from March 2008 through June 2009. Our audit included
contacting Highmark and the 15 providers that received the 32 high-dollar Medicare payments.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Medicare laws and regulations;

   •	 used CMS’s National Claims History file to identify outpatient claims with high-dollar
      payments;

   •	 reviewed available Common Working File data for claims with high-dollar payments to
      determine whether the claims had been canceled and superseded by revised claims and
      whether payments remained outstanding at the time of our audit;

   •	 contacted the providers that received the high-dollar payments to determine whether the
      information on the claims was correct and, if not, why the claims were incorrect; and

   •	 coordinated the calculation of overpayments and discussed the results of our review with
      Highmark.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.




                                             2

                          FINDINGS AND RECOMMENDATIONS 


Of the 32 high-dollar payments that CareFirst made to providers, 24 were inappropriate. The
24 payments included overpayments totaling $1,208,485. Providers refunded $381,110 of this
amount prior to our audit and $716,517 as a result of our audit. Providers had not refunded
$110,858 in overpayments for six claims at the time of our audit.

Providers received these overpayments by billing for excessive units of service or by billing for
the wrong service or procedure. CareFirst made these incorrect payments because neither the
Fiscal Intermediary Standard System nor the Common Working File had sufficient edits in place
from January 1, 2003, through September 30, 2005, to detect and prevent the overpayments.

FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P. L. No. 99-509, requires
providers to report claims for outpatient services using Healthcare Common Procedure Coding
System codes. CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 4,
section 20.4, states: “The definition of service units . . . is the number of times the service or
procedure being reported was performed.” In addition, chapter 1, section 80.3.2.2, of this
manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

Section 3700 of the “Medicare Intermediary Manual” requires the fiscal intermediary to maintain
adequate internal controls over Medicare automatic data processing systems to preclude
increased program costs and erroneous and/or delayed payments.

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

CareFirst made six overpayments for excessive units of service totaling $110,858 which
providers had not refunded at the time of our audit.

   •	 For one overpayment, the provider billed for 200 units of rituximab, a cancer treatment
      drug, instead of 4 units. As a result, CareFirst overpaid the provider $57,924.

   •	 For one overpayment, the provider billed for 300 units of filgrastim, a chemotherapeutic
      drug, instead of 1 unit and 80 units of epoetin alpha, an anemia treatment drug, instead of
      2 units. As a result, CareFirst overpaid the provider $51,549.

   •	 For one overpayment, the provider billed for 31 units of medical-surgical supplies,
      instead of 29 units. As a result CareFirst overpaid the provider $491.

   •	 For one overpayment, the provider billed for 50 units of pharmacy services, instead of 38
      units. As a result CareFirst overpaid the provider $399.

   •	 For one overpayment, the provider billed for three units of medical-surgical supplies that
      it did not provide. As a result CareFirst overpaid the provider $355.


                                               3

    •	 For one overpayment, the provider billed for 13 units of medical-surgical supplies,
       instead of 7 units. As a result, CareFirst overpaid the provider $140.

Providers billed CareFirst for excessive units of service. As a result, CareFirst overpaid
providers a total of $110,858.

CAUSES OF OVERPAYMENTS

The providers attributed the incorrect payments to clerical errors made by their billing staffs and
to problems with incorrect data in their billing systems. In addition, during the audit period,
CareFirst did not have sufficient prepayment or postpayment controls to identify overpayments
at the payment level, and the Common Working File prepayment process lacked edits to detect
and prevent excessive payments. In effect, CMS relied on providers to notify the intermediaries
of excessive payments and on beneficiaries to review their “Medicare Summary Notice” and
disclose any overpayments. 2

FISCAL INTERMEDIARY PREPAYMENT EDIT

On January 3, 2006, after our audit period, CMS required intermediaries to implement a Fiscal
Intermediary Standard System edit to suspend potentially excessive Medicare payments for
prepayment review. This edit suspends high-dollar outpatient payments greater than $50,000
and requires intermediaries to determine the legitimacy of the payments.

RECOMMENDATIONS

We recommend that Highmark:

    •	 recover the $110,858 for the six identified overpayments and

    •	 use the results of this audit in its provider education activities.

HIGHMARK MEDICARE SERVICES COMMENTS

In written comments on our draft report, Highmark stated that it concurred with our
recommendations. Highmark said that it will initiate action to recover the $110,858 in identified
overpayments and will include the results of this audit in its analysis of provider education
activities. Highmark’s comments are included in the Appendix.




2
 The fiscal intermediary sends a “Medicare Summary Notice” to the beneficiary after the hospital files a claim for
outpatient services. The notice explains the services billed, the approved amount, the Medicare payment, and the
amount due from the beneficiary


                                                       4

APPENDIX

                                                                                                    APPENDIX 





                                   <fIIGHIvVIRK.
                                       e _SEIMCB
                                      MWiCM£ _




Stephen Vrbitsky                                                                 August 19, 2009
Reg;onallnspector General for Audit 8eNices
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499

DIG Report Number: Ml3-07-OO12


Dear Mr. Virtlbky:

The following are the Highmark Medicare 5efvices' responses to your request for comments on
the dr-1ft report entitled, "Review of High-Dollar Payments for Mary\and and District of Columbia
Outpatient Claims Processed by Carefirst of Maf)'land for the Period January 1. 2003 though
September 30, 2005:

Recommendation 1- Recover $110,658 for the six identified overpayments

HMS Response: HMS agrees with this reoommendation and upon receipt of claim detail
information, HMS win PlXSOO recovery of the identified overpayments.


Recommendation 2 - Use the results of this audit In provider education adivities.

HMS Response: Highmafk Medicare Services wi. include the results of this audit in our
analysis of provider education activities. Highmark Medicare SelVices Informatlcs Team
conducts proactive data analysis on an ongoing basis to determine unusual patterns and
discover issues of risk lor the Medicare program. This information is used as a resource in
determining provider education activities.

Please do not hesitate to contact me at (717) 302-4410 if you have any questions.




~~~
Direct:Of, Quality and Pelformance Management



cc: Bernard Siegel


                                                PO b _
                                               I;".o/IlIOIfJ.-AA . _
                                     .....J"        "' . . . .' " " " ' ..1t1I
